Pension Benefit Guaranty Corporation
       Office of Inspector General
              Audit Report




Audit of PBGC’s Schedules of Appeal Closings
       For Fiscal Years 1999 and 2000




             August 15, 2002
                                       2002-11/23154
Contents


Letter                                                                   1


Appendix I

PBGC's Schedules of Appeal Closings
For FYs 1999 and 2000                                                    5


Agency Comments                                                      Tab A




Abbreviations

BD              Benefit Determination
BDL             Benefit Determination Letter
CFR             Code of Federal Regulations
DoPT            Date of Plan Termination
ERISA           Employee Retirement Income Security Act of 1974, as amended
FOIA            Freedom of Information Act
FY              Fiscal Year
IOD             Insurance Operations Department
OIG             Office of Inspector General
PanAM CRIP      Pan American World Airways, Inc. Cooperative Retirement
                Income Plan
PBGC            Pension Benefit Guaranty Corporation
PEAD            Participant and Employer Appeals Department




                                                                    2002-11/23154
                                                                                       Office of Inspector General

                                                                                          August 15, 2002

The Honorable John B. Breaux
Chairman
The Honorable Larry E. Craig
Ranking Member
Special Committee on Aging
United States Senate

The Honorable John F. Kerry
Chairman
The Honorable Christopher S. Bond
Ranking Member
Committee on Small Business and Entrepreneurship
United States Senate

          This letter responds to a request by your committees that we review the results of pension plan
participants’ appeals of pension benefit determinations issued by the Pension Benefit Guaranty Corporation
(PBGC). Specifically, you were interested in how many benefit determinations were “successfully” appealed,
i.e., the appeals decision resulted in a benefit determination more favorable to the participant than PBGC’s
original benefit determination.


RESULTS IN BRIEF

         We asked PBGC to provide detailed information about the appeals closed during FYs 1999 and
2000. In response, PBGC issued Schedules of Closed Appeals for Fiscal Years 1999 and 2000 (Appendix I).
PBGC asserts that the schedules comprise the appeals closed during the two fiscal years. As a
result of our testing, we conclude that PBGC’s assertions, as reported in its schedules at Appendix I and
summarized below, are fairly presented.

        As shown in the schedule below, the number of appeals closed was 2005 in FY 1999 and 1583 in FY
2000. Most of these closed appeals upheld PBGC’s benefit determinations. On the other hand, 17% in FY
1999 and 26.3% in FY 2000 of appeal decisions resulted in changes more favorable to participants, while 1%
or fewer resulted in less favorable changes for participants.1

                                   Summary Schedule of Appeal Decisions

                                                                            FY 1999        FY 2000

        PBGC benefit determinations upheld                                    1646           1151
                                                                             (82.1%)        (72.7%)

        Appeal decisions resulting in changes more favorable to                341            416
        participants                                                          (17%)         (26.3%)

        Appeal decisions less favorable for participants than PBGC              18            16
        determinations                                                        (.9%)          (1%)
        Total closed                                                          2005           1583




1
    The term “appellant” in Appendix 1 is synonymous with “participant” in this report.


                                                                                                    2002-11/23154
        We note that PBGC's Schedule of Closed Appeals for Fiscal Years 1999 and 2000 at Appendix I
includes separate columns for closed appeals for the Pan American World Airways, Inc. Cooperative
Retirement Income Plan (PanAM CRIP) as these appeals comprise a majority of the appeals closed during
each FY.


BACKGROUND

        The Pension Benefit Guaranty Corporation (PBGC or corporation) was established under Title IV
of the Employee Retirement Income Security Act of 1974 (ERISA), as amended. PBGC is a government
corporation that protects the pensions of more than 43 million working men and women in approximately
35,000 private defined benefit pension plans including 1,700 multiemployer plans. ERISA § 4002 (a)
states:

           The purposes of this title, which are to be carried out by the corporation, are—

           (1) to encourage the continuation and maintenance of voluntary private pension
           plans for the benefit of their participants,

           (2) to provide for the timely and uninterrupted payment of pension benefits to
           participants and beneficiaries under plans to which this title applies, and

           (3) to maintain premiums established by the corporation under §4006 at the lowest
           level consistent with carrying out its obligations under this title.

PBGC insures pensions, within statutory limits, of participants in certain defined benefit single-employer
and multiemployer2 pension plans that meet the criteria specified in ERISA § 4021.

         At September 30, 2000, PBGC was trustee, or in the process of becoming trustee, of 2,874
terminated pension plans. To fulfill its responsibility to ensure the uninterrupted payment of pension
benefits to plan participants, PBGC pays estimated benefit amounts until PBGC obtains key participant
data, and values plan assets and recoveries from the plan’s sponsors. PBGC then calculates the actual
benefit to be paid to each participant according to the specific terms of the participant’s plan, ERISA’s
guarantee levels, and the funds available from plan assets and employer recoveries.

        PBGC issues a benefit determination letter (BDL)3 to participants regarding entitlement to,
amount, and other conditions of a benefit. The BDL should include a benefit statement that lists the
information PBGC used in its determination.




2Under the multiemployer program, when a plan becomes insolvent and cannot pay pension benefits when
due, it receives financial assistance from PBGC so that the plan can continue to pay participants' guaranteed
benefits, rather than PBGC paying the benefits directly to the participants.
3
  Since the time we were asked to conduct this review, PBGC changed its terminology regarding its benefit
decisions – formerly the decisions were “initial determination letters” or “IDLs,” now they are “benefit
determination letters” or “BDLs.”

                                                    2
                                                                                              2002-11/23154
        The BDL also informs the participant of the right to appeal the determination.
Appeals must be filed with PBGC’s Appeals Board (the Board), and generally must be
received by the Board no later than 45 days after the date of the BDL.4 When an appeal is
submitted and accepted, PBGC's Insurance Operations Department (IOD) usually delays any
contemplated actions discussed in the BDL (i.e., change in the benefit amount) until the
appeal is decided by the Board or closed on procedural or administrative grounds.5

         When the Board’s review is concluded, it issues a written appeal decision to the participant.
Based on the results of the appeals decision, IOD will take specific action concerning the participant's
benefit. This action may include paying the benefit amount stated on the BDL or recalculating the benefit
amount and issuing a new BDL.

         During FY 2001, an inter-departmental team of PBGC employees examined the appeals process
to find ways to reduce processing time and improve responsiveness to customers. As a result, in January
2002, PBGC’s Operations Integration Board approved several changes to the appeal process. None of
these changes were in effect at the time of our audit.

OBJECTIVE, SCOPE and METHODOLOGY

        The objective of our audit was to conclude on PBGC’s assertions in Appendix I. PBGC
represented to the OIG that they are responsible for the fair presentation of Appendix I, the data is
accurate and complete, and all pertinent records and data were made available. Our audit was
conducted in accordance with Government Auditing Standards issued by the Comptroller General of the
United States.

        The laws and regulations containing relevant criteria for appeals to PBGC are ERISA and PBGC
regulations, “Rules for Administrative Review of Agency Decisions,” at 29 CFR Part 4003.

        We gained an understanding of the appeals process and the controls in place during FYs 1999
and 2000 for receiving, reviewing and issuing decisions on appeals of benefit determination letters. These
procedures included reviewing pertinent PBGC regulations, manuals, and other documents and
interviewing personnel. In our sampling tests, we also tested relevant controls to verify our
understanding of the process.

       To support its assertions in Appendix I, PBGC provided information from the PEAD appeals
database. With this information, we performed tests to verify the number of appeals closed during FYs
1999 and 2000 and the classifications of the reasons for closure.

        To test the reasonableness of Appendix I, we used statistical sampling to select a sample of closed
appeals for each FY. By using this method, we could quantify the sampling risk and all appeals in the
two populations had an equal chance for selection.

         We then compared the appeals selected for testing with the documentation PBGC used to support
its categorizations for each FY and classifications of reasons for closure. This documentation included
appeal letters, minutes of Appeals Board meetings, notifications to IOD, forms showing the Board
members' approvals of certain actions, and letters to participants providing a detailed discussion of the
appeals decision.




4
 The Board resides within the Participant and Employer Appeals Department (PEAD). PEAD personnel
support the appeals process and assist the Board in conducting administrative reviews.

5 The Schedules of Closed Appeals at Appendix I include a listing of specific appeal closings categories.
Items 02 through 09 and 13 are appeals closed on procedural grounds, while items 10 through 12 are
appeals closed on administrative grounds.
                                                     3
                                                                                             2002-11/23154
       We performed certain procedures to test the completeness of the appeals reported by
PBGC. These procedures were not sufficient in scope to assure that PBGC reported all
appeals in Appendix I; however,we did not identify any appeals which were not reported in
the Schedules of Appeals.
        We did not review the accuracy of PBGC’s appeals decisions.
CONCLUSION

         In our opinion, Appendix I, “Schedules of Closed Appeals,” fairly present the number of appeals of
benefit determination letters closed and the classifications of the reasons for closure during FYs 1999 and
2000 in conformity with the criteria listed above.

AGENCY COMMENTS

         A draft letter report was provided to the Agency for comment. PBGC’s response
includes a clarification of the rate of change described in the Results in Brief section of this
letter. The response also refers to an earlier OIG report which is Audit of PBGC’s Response to
Certain Questions Concerning Appeals of PBGC Initial Determinations of Pension Benefits,
98-10/23131. The report responded to a request by the Chairman of the Special Committee
on Aging. The full text of the comments is included at Tab A.

        If you have any questions concerning this letter report, please contact me at
(202) 326-4030.




Deborah Stover-Springer
Acting Inspector General




                                                     4
                                                                                              2002-11/23154
Appendix I
                                    Appendix I

                             CLOSED APPEALS
                                                                         Date: 03/09/2001
                                     FY 1999



                                                             Total   PanAM -     All
                                                                      CRIP     Others
Effect Of Appeal Decision On Appellant:

Benefit determination upheld for same reason as BD            1627      1303       324

Benefit determination upheld for other reasons                  19         0        19

Appeal decision more favorable than BD                         341        49       292

Appeal decision less favorable than BD                          18         3        15

                                                              2005      1355       650

Appeal Closing – General:
Determination affirmed by Appeals Board                         47         8        39
Determination changed by Appeals Board                          66         3        63
Appeal closed administratively                                  23         5        18
Appeal decided otherwise                                      1869      1339       530
                                                              2005      1355       650
Appeal Closing – Specific:
01.   Decided by Appeals Board                                 113        11       102
02.   Closed per earlier Appeals Board Decision               1292      1263        29
03.   IOD issued new BD                                        275        47       228
04.   Information provided by PEAD                             248        22       226
05.   Information provided by IOD                                8         1         7
06.   Appeal not perfected post - FOIA                           3         0         3
07.   No grounds presented                                      21         6        15
08.   No appealable issue, e.g. DOPT, terms of court order       5         0         5
09.   Appeal untimely                                           16         0        16
10.   Appeal withdrawn                                          19         3        16
11.   Premature filing                                           3         1         2
12.   Duplicate filing                                           1         1         0
13.   Other                                                      1         0         1
                                                              2005      1355       650




                                         -5-
                                                                          2002-11/23154
                                 Appendix I

                          CLOSED APPEALS
                                                                      Date: 03/09/2001
                                  FY 2000



                                                       Total        PanAM -     All
                                                                     CRIP     Others
Effect Of Appeal Decision On Appellant:

Benefit determination upheld for same reason as BD       1136           794       342

Benefit determination upheld for other reasons                 15         0        15

Appeal decision more favorable than BD                    416            72       344

Appeal decision less favorable than BD                         16         1        15

                                                         1583           867       716

Appeal Closing – General:
Determination affirmed by Appeals Board                        48         7        41
Determination changed by Appeals Board                    115            37        78
Appeal closed administratively                                 19         1        18
Appeal decided otherwise                                 1401           822       579
                                                         1583           867       716
Appeal Closing – Specific:
01.   Decided by Appeals Board                            163            44       119
02.   Closed per earlier Appeals Board Decision           840           780        60
03.   IOD issues new BD                                   280            33       247
04.   Information provided by PEAD                        234             2       232
05.   Information provided by IOD                           5             1         4
06.   Appeal not perfected post - FOIA                      1             1         0
07.   No grounds presented                                 30             5        25
08.   No appealable issue, e.g. DOPT, terms of court        2             0         2
09.   Appeal untimely                                       9             0         9
10.   Appeal withdrawn                                     18             1        17
11.   Premature filing                                      1             0         1
12.   Duplicate filing                                      0             0         0
13.   Other                                                 0             0         0
                                                         1583           867       716




                                      -6-
                                                                        2002-11/23154
Tab A
           Pension Benefit Guaranty Corporation
           1200 K Street, N.W., Washington, D.C. 20005-4026



                                                              August 12, 2002


TO:          Deborah Stover-Springer
             Acting Inspector General


THRU:        John Seal
             Chief Management Officer


FROM:        Harriet D. Verburg
             PEAD Director

SUBJECT:     Audit of PBGC’s Schedules of Appeal Closings for Fiscal Years
             1999 and 2000

Thank you for the opportunity to provide comments on the subject draft report
dated July 24, 2002. We have only the following comment, which clarifies the
rate of change described under “Results in Brief” on pages 1 and 2 of the draft.

      Most Pan Am CRIP appeals were multiple issue form-letter appeals as the
      result of a write-in campaign mounted by some former CRIP participants.
      Omitting Pan Am CRIP appeals from the schedule, 47% of appeals closed
      in FY 1999 and 50% of appeals closed in FY 2000 resulted in changes more
      favorable to participants. This result is comparable to the change rate in
      [OIG's] earlier report to the Committee regarding the schedule of appeals
      closed during FY 1997.

Please let us know if you need additional information.
